<html>
<title> - LOS ANGELES: THE REGIONAL IMPACTS AND OPPORTUNITIES OF MIGRATION</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Publishing Office]






    LOS ANGELES: THE REGIONAL IMPACTS AND OPPORTUNITIES OF MIGRATION

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2008

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Available via http://www.csce.gov
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

75-227                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,          ALCEE HASTINGS, Florida,
  Co-Chairman                         Chairman
RUSSELL FEINGOLD, Wisconsin         LOUISE McINTOSH SLAUGHTER,
CHRISTOPHER DODD, Connecticut         New York
HILARY RODHAM CLINTON, New York     MIKE McINTYRE, North Carolina
JOHN KERRY, Massachusetts           HILDA SOLIS, California
SAM BROWNBACK, Kansas               G.K. BUTTERFIELD, North Carolina
GORDON SMITH, Oregon                CHRISTOPHER SMITH, New Jersey
SAXBY CHAMBLISS, Georgia            ROBERT ADERHOLT, Alabama
RICHARD BURR, North Carolina        JOSEPH PITTS, Pennsylvania
                                    MIKE PENCE, Indiana
                                      

                     EXECUTIVE BRANCH COMMISSIONERS

                   David Kramer, Department of State
                 Mary Beth Long, Department of Defense
              David Steel Bohigian, Department of Commerce
              
              
              
              
              
              
              
              
              
              
              
              
              
                 LOS ANGELES: THE REGIONAL IMPACTS AND
                       OPPORTUNITIES OF MIGRATION

                              ----------                              

                              MAY 9, 2008
                             COMMISSIONERS

                                                                   Page
Hon. Alcee Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................    01
Hon. Hilda Solis, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    02

                                MEMBERS

Hon. Diane Watson, Member of Congress from the State of 
  California.....................................................    11

                               WITNESSES

Reverend Richard Estrada, Pastor and Founder, Our Lady Queen of 
  Angles Catholic Church.........................................    04
Raul Hinojosa-Ojeda, Department of Chicana and Chicano Studies 
  Associate Professor, UCLA......................................    07
Lucy Ito, Senior Vice President, California Credit Union League..    13
Kerry Doi, President and CEO, Pacific Asian Consortium in 
  Employment.....................................................    21
Angelica Salas, Executive Director, Coalition for Human Immigrant 
  Rights of Los Angeles..........................................    23
Eunsook Lee, Executive Director, National Korean American Service 
  & Education Consortium.........................................    28

 
                 LOS ANGELES: THE REGIONAL IMPACTS AND
                       OPPORTUNITIES OF MIGRATION

                              ----------                              


                              MAY 9, 2008

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 11:18 a.m. to 1:40 p.m. PST at 
California State University, Los Angeles, California, Hon. 
Alcee Hastings, Chairman, Commission on Security and 
Cooperation in Europe, presiding.
    Commissioners present: Hon. Alcee Hastings, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Hilda Solis, Commissioner, Commission on Security and 
Cooperation in Europe.
    Members present: Hon. Diane Watson, Member of Congress from 
the State of California.
    Witnesses present: Reverend Richard Estrada, Pastor and 
Founder, Our Lady Queen of Angles Catholic Church; Raul 
Hinojosa-Ojeda, Department of Chicana and Chicano Studies 
Associate Professor, UCLA; Lucy Ito, Senior Vice President, 
California Credit Union League; Kerry Doi, President and CEO, 
Pacific Asian Consortium in Employment; Angelica Salas, 
Executive Director, Coalition for Human Immigrant Rights of Los 
Angeles; and Eunsook Lee, Executive Director, National Korean 
American Service & Education Consortium.

   HON. ALCEE HASTINGS, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Thank you all for being here today. Certainly 
I want to thank my good friend and a person that I work 
actively with, our Congresswoman Solis. It's really an honor 
for the Helsinki Commission to be holding a hearing in Los 
Angeles today on migration, a topic that is not only a center 
of the great debate here, but also in the sphere that Ms. Solis 
and I work in.
    I'm so anxious to get to our witnesses, and I'm going to 
pass over my responsibilities as Chair. I apologize. I didn't 
introduce myself. My name is Alcee Hastings, and I'm the 
chairperson of the Helsinki Commission in the United States 
Congress. I'm from Fort Lauderdale, Florida, so I come all the 
way from yet another diverse part of our country. Actually, the 
congressional district that I'm privileged to serve is one of 
America's most diverse districts in terms of the number of 
people that migrate there. But I am delighted that you all are 
here. I welcome all of our witnesses, and I'm sure that 
Congresswoman Solis will have a lot to say and will introduce 
our witnesses and we will hear from them.
    I do encourage--the Helsinki Commission for the first time 
went green and, therefore, we don't have an awful lot of 
paperwork that we distribute anymore--but I do encourage you to 
go to our Web site. I think you will find it fascinating. The 
report from this hearing will go up on the Web site for those 
of you; particularly the students here from Cal State and other 
universities, when you are writing those papers, come down on 
our Web site. You might find some comfort there.
    Thank you all for being here. Congresswoman Solis.

  HON. HILDA SOLIS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Solis. Thank you, Congressman Hastings. I especially am 
grateful that Congressman Alcee Hastings joins with me to have 
this first historical meeting on migration with OSCE and 
Helsinki Commission. Some of you may not know what the Helsinki 
Commission represents, but several decades ago with the fall of 
the iron curtain, so to speak, countries came together with the 
leadership of the United States to talk, in general, about 
cooperation, security and democratization.
    I am very privileged to have been appointed to this 
particular group of different countries representing the United 
States, and it's the first time that a Latina has ever had, I 
believe, a leadership position in the organization. What's 
unique for us is both Alcee and I share common values and the 
belief that with diversity there is strength. As responsible 
members of Congress, and working with Parliamentarians is to 
try to talk about issues that often don't get the ability to 
talk about thoroughly in the House of Representatives. This is 
one way of bringing out our interests, our responsibility to 
hear what is happening with this very important issue of 
migration. Some of you here may say, well, is it migration or 
immigration? It can be both.
    We have brought together here, I believe, a panel of people 
that can help shed some light on what the challenges are, what 
best practices exist, and also what some of the positive 
aspects of that migration are. The reason why we came here is 
because Los Angeles, to me, is the greatest incubator of where 
all these different forces come together, and we are our own 
Ellis Island, so to speak, that New York had that decades ago, 
centuries ago, and now Los Angeles is a port of entry for many, 
many people from across the western hemisphere and from other 
continents.
    I think it's very important today that we hear from our 
witnesses who can talk very credibly about that experience and 
what we can take back and report back to our members of other 
parliaments. So the information that we gather here today will 
be put together in a report that will be shared with other 
parliamentarians at our fall meeting that will be held near 
Russia, Kazakhstan, which is a new developing country, but to 
talk about why it's important to hear about the discussion of 
migration. You see it happening in South Africa, you see it 
happening in Morocco, in Spain, you see it happening in 
Ireland, you see it happening in England, you see it happening 
in the Middle East where Iraqi refugees, for example, are being 
driven out of their home and sent to other countries. Some are 
welcome, some are not.
    Here, our experience is very unique. I know the bulk of the 
people living in the surrounding area come from Hispanic, 
Latino background, and we have been going through this 
experience, I think, since the birth of Los Angeles. So I know 
that we have much that we can add and much wealth and talent 
that we can share with other people in the world.
    I want to tell you very briefly that I'm excited to be 
here. The reason why I have been appointed was because my 
unique experience as a child of immigrants and a member of 
Congress who can speak and understand what that means as a 
value in a member of Congress. So I've been appointed by the 
OSCE as a special representative on migration. I will be 
delivering whatever information we gather here to that body of 
other parliamentarians, about 3- or 400 that will gather, so 
it's very critical that we begin this discussion.
    In many cases, other countries have been accustomed to only 
dealing with the administration, the current Bush 
administration. Obviously, Congressman Hastings and myself come 
from a different perspective, and we believe it's important and 
critical for people to understand that there are differences of 
opinion, and in that difference of opinion, we believe that we 
can shed light on the positives of what is happening in our 
communities across the country, globally, but also the positive 
aspects that immigrants make to our great country.
    With that, I want to thank our panelists; I want to thank 
the audience. I know we have students from UCLA, from Cal State 
L.A., we have members representing different labor 
organizations, and we have different businesses, federations 
also representing different groups in our community, the 
religious community. I'm overwhelmed with the excitement that 
you bring to this discussion today. With that, I would like to 
begin with our first speaker, and this is going to be Father 
Richard Estrada who I have known for several years. He is the 
associate pastor of Our Lady Queen of Angels Catholic Church, 
known to many here as La Placita in Los Angeles, the oldest 
church in Los Angeles. He is the founder and executive director 
of Jovenes, Inc.
    Jovenes, as you know, means young people, a nonprofit 
organization which serves homeless and at-risk immigrants and 
youth.
    Father Estrada received his Bachelor of Arts degree from 
the University of San Francisco and studies theological and 
pastoral studies at the Graduate School of Theology in 
Berkeley, California, the Mexican-American cultural center in 
San Antonio, Texas, and the Fred C. Nelles School in Whittier, 
California. He has spent over 30 years of youth advocacy and 
program management working with high-risk youth in Los Angeles 
and is nationally recognized as an advocate for the less 
fortunate. He's a champion of the humane treatment of 
immigrants, and I remember fondly him on many occasions asking 
me to attend with him on visits on the border to provide 
bottles of water for those migrants who were trying to come 
here and seek jobs, but more importantly to save lives for 
those that didn't make it across that desert.
    I'm proud that last September Father Estrada joined me in 
Washington, D.C., as one of the first Hispanic, I believe, 
significant individuals in this movement for immigrants and 
provided the opening prayer for the Congress during Hispanic 
heritage month.
    Thank you very much, Father Estrada. We look forward to 
hearing your testimony. If you can please begin.

REVEREND RICHARD ESTRADA, PASTOR AND FOUNDER, OUR LADY QUEEN OF 
                     ANGLES CATHOLIC CHURCH

    Mr. Estrada. Thank you. My name is Father Richard Estrada 
from Our Lady Queen of Angels Catholic Church. As a Claretian 
missionary, Catholic priest, and religious leader in the new 
sanctuary movement, I am grateful, Chairman Alcee L. Hastings, 
Representative Hilda Solis, and members of the Commission on 
Securities and Cooperation in Europe, U.S. Helsinki Commission 
for inviting me to testify on Los Angeles Regional Impact and 
Opportunities of Migration.
    Let me remind everyone here that the fundamental issues 
before this commission are nonpartisan and do impact the lives 
of thousands of people and families in Los Angeles. Please take 
what you hear today and work with your colleagues in Congress 
to seriously discuss and address legitimate concerns regarding 
the separation of immigrant families, the exploitation of 
immigrant youth, exploitation within guest worker programs, the 
protection of our borders, and curbing the flow of unlawful 
immigration. The Catholic church and fellow paid communities 
call for the caring for and the just treatment at all times 
from our elected officials on this very important issue.
    I am here today to share my personal experiences with 
immigrants, communicate the position of the Catholic church on 
immigration, and, by extension, immigration reform and the 
effects and opportunities presented by migration. My testimony 
will focus upon my firsthand accounts of the contributions made 
and continuing opportunities resulting from immigration, the 
role of the Catholic church and interfaith communities in 
immigration.
    In the 1980s youth advocates and myself became aware and 
concerned for Central American children who were fleeing civil 
war and arriving alone in Los Angeles. They would knock at the 
door of our church and ask for shelter. They were hungry, 
traumatized, and homeless. Our Lady Queen of Angels church at 
Olvera Street, the birthplace of our great city, better known 
as La Placita, small plaza, has always been an active and 
spiritual sanctuary for the Hispanic Catholic community. It was 
then that placita became a sanctuary church for our refugee 
sisters and brothers.
    At that time we discovered that public and private agencies 
were unresponsive to the needs of unaccompanied refugee 
children. A nonprofit organization was established to meet the 
needs of this population of youth. Jovenes, Inc. not only 
provided them with health and human services but advocated on 
their behalf. Jovenes, Inc., which means ``youth,'' continues 
to reach out to lonely, traumatized immigrant youth, when 
giving them hope and the tools to succeed; they become 
culturally integrated into society.
    Hundreds of homeless youth have become U.S. citizens and 
are responsible adults. Some examples of our success are 
Johnny, a Honduran and Hurricane Mitch refugee. He is now a 
youth counselor. Nettie, a Guatemalan civil war refugee, has 
been in the U.S. Army and is an officer for the past ten years. 
Oswaldo, a Mexican immigrant, is a university graduate student. 
Bowong, a Vietnamese refugee, is a chef. These youth are living 
proof that, when given a helping hand, immigrants will 
contribute to the fabric of our society.
    Los Angeles is fortunate to have a coalition of churches, 
temples, nonprofit organizations, community leaders, elected 
officials, and labor unions who work together on behalf of 
immigrants. For the vast majority of immigrants, migration to 
the United States, including Los Angeles, is an economic and/or 
family unifying necessity. Churches', synagogues', and temples' 
work in assisting migrants stems from the belief that every 
person is created in God's image.
    From the Old Testament, Deutera, God calls upon his people 
to care for the alien because of their own alien experience: 
``So, you too, must befriend the alien, for you were once 
aliens yourselves in the land of Egypt.'' Taken from the book 
of Deuteronomy, Chapter 10, verse 17 to 19. It is for these 
reasons that religious leaders hold a strong interest in the 
welfare of immigrants and the ways in which our nation welcomes 
newcomers from all lands.
    This country has always been an immigrant nation. The 
Catholic church is historically an immigrant church, and like 
other faith communities, is present throughout sending 
countries. In the United States, more than one-third of 
Catholics are of Hispanic origin, and our church in this 
country is made up of more than 58 ethnic groups from 
throughout the world, including Asia, Africa, the Near East, 
Mexico, and Latin America.
    The churches, temples, and synagogues have a long history 
of involvement in immigration issues; both in the advocacy 
arena and in welcoming and assimilating waves of immigrants and 
refugees who have helped build our nation throughout her 
history. Many faith-based immigration programs were involved in 
the support for and implementation of the Immigration Reform & 
Control Act, IRCA, in the 1980s, and those programs continue to 
serve immigrants today.
    As providers of pastoral and social services to immigrants, 
the growing partnerships between interfaith communities 
continues to give witness to and care for the human suffering 
occurring each day in our base communities of faith, social 
service programs, hospitals, and schools that have resulted 
from a broken immigration system which fails to uphold the 
dignity or protect the human rights of many immigrants seeking 
simply to improve their own or their families' lives in our 
land of opportunity.
    We believe the current surge of separating U.S. children 
from their undocumented parents, apprehending noncriminals in 
immigration work site raids, and the exploitation of workers is 
immoral. The current immigration system is morally unacceptable 
and must be reformed. Indeed, we see peaceful members of our 
communities living in the shadows of undocumented immigration 
status.
    What is needed to respond to these problems is a true 
comprehensive immigration reform that will provide 
opportunities for legal status for the undocumented currently 
living in the United States that will lead to permanent 
residency and eventual citizenship.
    A work permit is needed for undocumented workers presently 
residing in a nation with protection from employer 
exploitation. We must strengthen the goals for family unity 
that has been the cornerstone of U.S. immigration policy. These 
are the essential elements of the Catholic church and the broad 
network of interfaith communities proposed for effective, 
comprehensive immigration reform.
    Moreover, we need national policies that help overcome the 
pervasive poverty and deprivation, lack of employment, 
violence, and oppression that push people to leave their home 
countries because in the ideal world, for which we all must 
strive, migrants should have the opportunity to remain in their 
homelands and support themselves and their families. Addressing 
the root causes of migration is as humanitarian a mission as is 
reforming our own immigration system.
    We respect and reaffirm the right of our nation to secure 
our borders and to regulate immigration for the common good of 
all citizens. We also pray for the women and men responsible 
for enforcing the law, but we cannot ignore the human needs of 
immigrant workers and their families when the law fails to 
protect their basic human rights.
    The above principles will help guide this effort so that 
human rights and dignity of persons are protected. But this 
must be made clear to lawmakers: Enforcing immigration law in 
the absence of providing a path to legalization for the 
undocumented will be a monumental setback to reform. Simply 
stated, status enforcement provisions will work only in 
conjunction with the other aspects of comprehensive immigration 
reform, legalization and provisions for a work permit for 
undocumented workers.
    Deportation of 12 million people is unreasonable and 
immoral. It would divide families, create economic turmoil 
throughout our nation's work force, and create fear on a 
massive scale. It will essentially create a police state 
environment. People will refuse to cooperate with police or 
report crimes in order to avoid suspicion as being illegal.
    When combined with a reasonable worker program and an 
ability to earn legal status, then enforcement-only provisions 
and increased border security will mitigate the amount and 
efforts of undocumented migration because enforcement agents 
will be able to concentrate their efforts on protecting the 
border and pursuing the decreased number of people smuggling 
drugs and arms and human trafficking.
    We are all pilgrim people. For more than two centuries 
European immigrants have travelled here in the hope of making a 
better life for themselves and their families. The same human 
hopes and needs are trapping a new generation of immigrants 
today, and as generations of past immigrants were successful, 
our newest immigrants will improve their lives and contribute 
to our nation economically, culturally, and socially. Let us 
not forget that it was our immigrant ancestors who built this 
country.
    Thank you very much.
    Ms. Solis: Thank you, Father Estrada. I failed to mention 
that each speaker or panelist will be given five minutes and 
after we will go through a series of questions and then we will 
go into the next panel. I want to now welcome Dr. Raul 
Hinojosa-Ojeda, who is the associate professor of the UCLA 
Department of Chicana and Chicano Studies and the Cesar E. 
Chavez Center for Interdisciplinary Instruction. Dr. Hinojosa-
Ojeda is also the director of the Northern America Integration 
and Development Center and author of numerous books on 
political economy of regional integrations in various parts of 
the world. He has strong knowledge in investment and migration 
relations between the U.S., Mexico, Latin America, and the 
Pacific Rim.
    Dr. Hinojosa-Ojeda, welcome, and I'm glad you are able to 
join us today.

RAUL HINOJOSA-OJEDA, DEPARTMENT OF CHICANA AND CHICANO STUDIES 
                   ASSOCIATE PROFESSOR, UCLA

    Mr. Hinojosa-Ojeda. Thank you. My Congresswoman, you call, 
I'm here. Congressman Alcee Hastings, I'm pleased to see you 
again.
    Mr. Hastings. Yes, sir.
    Mr. Hinojosa-Ojeda. First, I want to begin by commending 
the Commission for having this hearing here. It sends a very 
important message. This is a global issue, and it's going to 
also increase on a global scale. My remarks which I presented 
to you reflects years of study that actually shows that the 
process of migration and remittances, combined are actually 
much more important to the future of the world economy than a 
lot of the discussions that are being held on trade, 
liberalization, and investment.
    If you look at the value of what immigrants provide to a 
world scale, on an annual basis, it's more than $2.5 trillion. 
It's the third largest economy of the world is basically what 
immigrants provide. Going forward, it's going to be even bigger 
because we are expecting over two and a half billion people to 
leave the country side and move into cities.
    At the same time, we are having massive demographic 
implosions in the rich countries of the world. So both the 
demographic dynamics are there as well as the potential for 
very strong economic benefit. That's the second point that I 
really commend the nature of the hearing on, not only the 
impacts but really the opportunities.
    Our research center at UCLA, and there's many people from 
UCLA here today that are very excited about this and are 
engaged in research on exactly how it is that these issues can 
be quantified. How can we really make the point? Being 
supportive of immigrants is absolutely a moral issue.
    I completely agree with Reverend Estrada that it's also one 
of economic necessity on a world scale. It's one of fundamental 
importance that we get it right and the policies right.
    Ms. Solis. Can I interrupt a moment, Dr. Hinojosa? We have 
been joined by Congresswoman, the Honorable Diane Watson. 
Diane, we have begun our panel discussion, and we will let Dr. 
Hinojosa finish and then we will allow for questions. Thank you 
for joining us. Good morning.
    Dr. Hinojosa, please continue.
    Mr. Hinojosa-Ojeda. Thank you, Congresswoman Watson, for 
joining us.
    What I was saying is that specifically, if we look at the 
case of Los Angeles, it is a microcosm of what this potential 
economic benefit could be of doing the right thing on 
immigration, in particular, as well as the negative 
consequences of doing the wrong thing.
    Lately, you may have heard recently that there is a very 
strong focus on Los Angeles by Department of Homeland Security 
and ICE and on the raids here. We are now studying the economic 
impact of that. The mayor and business leaders made an 
important statement last week.
    I'm here to tell you that the economic study that was 
presented then and our analysis shows that that's actually a 
very small underestimation of what is actually happening. Our 
estimation is that on an annual basis the undocumented 
population contributes $225 billion to the State of California, 
$80 billion to Los Angeles alone. So the economic impact of 
actually following through on what is the policy of this 
administration would actually wreak havoc, the worst economic 
depression in the history of the state. They are playing with 
fire, and this is, in a sense, an opportunity, again, to make 
clear to the American people the necessity of dealing with the 
immigration issue and doing it right.
    Our analysis also shows that if we do it right, if we do 
move towards a process of legalization and, more importantly, 
the economic incorporation of immigrants out of the shadows 
into the economic mainstream, the economic benefits far 
outweigh anything that we have now conceived, the world bank 
and what everybody tells us about, as trade liberalization.
    Doing the right thing on immigration, legalization of 
immigrants, creating the proper flow for them to come because 
they are needed, creating the right policy framework is a win-
win proposition. This is not an issue of simply being kind to 
strangers. It is something that is of vital economic importance 
for our nation to incorporate immigrants. We have a history, a 
very, very important history, that when we do bring in 
immigrants and we fully incorporate them, great things happen.
    One of the studies we recently completed is a 20-year 
impact of the Immigration Reform and Control Act, IRCA, which 
was bipartisan legislation, but there's very little tracking of 
what these legislations have actually done. What it did 
immediately was a win-win situation. It raised wages and raised 
the social floor and did away with most of the easily 
exploitable sweat shop environments, even in Los Angeles, in 
the first six years of IRCA.
    Also, very significant, the biggest drop-offs in history of 
undocumented crossing of the U.S. and Mexican border occurred 
right after legalization for over six years without spending 
the billions and billions of dollars that is currently being 
talked about. So the priorities are all wrong with the Congress 
people in Washington in terms of these issues. Legalization 
first. That is really the vital issue.
    Second, questions of economic incorporation are of 
incredible vital importance both here and abroad. What we have 
been doing is an analysis of the economic contributions of 
legalized immigration. For example, in the State of 
California--over the last 25 years, we finished this study. 
It's an astonishing number, $5.5 trillion, has been added by 
the foreign-born workers. In Los Angeles alone, $1.5 trillion. 
That's a lot of zeros. This is very significant.
    What happens also when you legalize people, when you really 
bring them into the economic mainstream? When we did our 
analysis 20 years later of IRCA, you see the profile of the 
typical undocumented family before legalization and now where 
they are now 20 years later. Many of their children are here in 
the room as students at UCLA, for example. But shifting 
dramatically to an unbanked environment to the banking sector 
that in itself is the single major contributor of the economic 
benefit.
    By the way, in this country there are over 60 million 
people that don't have access to financial services, and this 
is extremely important. This is an issue that cuts way beyond 
undocumented immigration and immigrants in general. It affects 
all our communities. The bringing in of people into the 
financial sector is, in a sense, the most vital issue.
    Now, particularly, I wanted to mention the issue of 
remittances. On a world scale, there are now over $300 billion 
of remittances. That is more than all direct foreign investment 
and international financial assistance. Specifically in Mexico, 
we are talking over $25 billion, far surpassing direct-born 
investment and aid. This is money directly from our communities 
supporting communities abroad. We are actually taking care of 
business at the grassroots level in terms of having a 
binational, transnational economic strategy, but we are doing 
it the wrong way.
    These billions of dollars are moving in the forms of cash 
out of our cash economies here in our communities which do not 
let us have the multiplier effects we should be having here to 
cash economies in rural areas which actually distort those 
economies and actually move the likelihood of more people 
moving here faster. So what's the answer? The answer is not 
only legalization, absolutely we need to do that, but we need 
to move especially towards embracing a new generation of 
technologies.
    We haven't had a chance to talk about this lately, but the 
work we are doing now is looking at how the cell phone, which 
all of us can't live without? There are now four billion cell 
phones on the planet. Last year it was 1.2 billion cell phones 
that were bought mostly by poor people. The technology is now 
available for this instrument to be the basis of a banking of 
the unbanked and a movement of remittances directly into micro-
financial institutions, both credit unions here as well as 
micro-financial institutions abroad.
    I know Lucy is going to talk about this as well. We worked 
with the California credit unions for many years, and what we 
are doing is working with people like Professor Muhammad Yunus, 
who won the Nobel Peace Prize in Bangladesh, and networks of 
financial institutions in Latin America who are now part of the 
hundred million who now have micro-finance institutions.
    We are now on the brink of a major breakthrough of taking 
this huge transnational economy of migrants here and of their 
families abroad and they are now part of the solution. They are 
not the problem. They are part of the solution of global 
economic development. If we bring the people out of the shadows 
into a legalized framework and empower them with technologies 
for this new generation of banking the unbanked, the economic 
impacts far outweigh--the full study is being made to the 
Commission, and we do it here and many other countries around 
the world--far outweigh anything that will dole around of trade 
liberalization, something it will produce. That's all very 
positive.
    But really focusing on migration, remittances are of 
critical economic importance on a global scale. I really would 
like the Commission to take this up in its next hearing. A lot 
of the studies we have been doing, as Congresswoman Solis has 
mentioned, Los Angeles and North America in a global 
comparative perspective. Europe, since this is a commission 
that is embedded in the history of Europe, actually has a great 
deal to tell us. We did an analysis of 50 years ago. The income 
gap between Spain and Europe was the same between Mexico and 
the United States. Today, that gap has disappeared between 
Spain and Europe, okay, as well as Ireland as well as Portugal. 
They have done economic integration right.
    One of the critical things was these were all migrant-
sending regions. Spanish migration, everyone knows about the 
Irish migrations, the Greeks. There's no more migration from 
these areas. They are now part of an integrated affluent 
Europe. What was the major difference? It turns out, the 
European regional development funds, as Congresswoman Solis 
knows, and we worked Councilman Torres to create the North 
American Development Bank, which was an attempt to get North 
America to think about things in a new way here. Europe, they 
did it right. It had a very positive impact.
    It is interesting. Our studies have now shown that what 
really made a difference in Europe and Spain, in particular, 
was migration and remittances. Legal migration and remittances 
going back into the full banking of the Cajas Popularis in 
Spain. The fascinating multiplier effect of remittances created 
small businesses and jobs, that shaped a vibrant grassroots 
economy. We can do this right now. We can do this right here. 
It's of vital importance specifically to L.A. There are a 
million undocumented families in Los Angeles. We are the 
undocumented capital of the world. That's not a great thing to 
say.
    But, on the other hand, it's an immense opportunity. If we 
do things right, and we have to be at the forefront of saying 
the policies have to be changed, they have to be changed now. 
We have the most to gain from doing that. This will separate us 
beyond the divisiveness of the raids and conflicts that people 
think about immigration and really see it as a brilliant 
example of the American vision of fully giving people rights 
and having them be fully incorporated is both political and 
moral, but it's also a great economic benefit and can lead the 
way in terms of how we enter this century and meet this most 
basic challenge of economic integration with four billion 
people that are extremely poor on the planet and we are going 
to have to deal with it.
    This is actually immigration, and remittance is doing the 
right thing. It is an extremely vital part of moving forward. 
Thank you very much.
    Ms. Solis. Thank you. I'm delighted to have been joined by 
one of my favorite congressional members representing the 
Greater Los Angeles area. That's Congresswoman Diane Watson. 
She and I spent time in the state senate, and I recall when I 
ran first for that seat, both she and another member of 
congress were so welcoming in having the first Latina placed 
there next to her. We spent many years working on the health 
committee and did some very good things back in our days.
    But I'm delighted she is here. She is a member of the House 
Foreign Affairs Committee, and she is a member of the House 
Oversight Government Reform Committee. Before she was elected 
to the House in 2001, she was also our United States ambassador 
to Micronesia under President Bill Clinton. She has had a 
legacy here in Los Angeles serving as state senator and also 
one of the first African-American women to serve on the L.A. 
Unified School District. She comes with a great deal of wealth 
and experience, and I'm so delighted that she could be here 
with us this morning. Please, Diane, take a moment to speak to 
us.

    HON. DIANE WATSON, MEMBER OF CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    Ms. Watson. Thank you so much. I want to welcome the 
chairman, and I like to call him ``Judge,'' Alcee Hastings, and 
our co-chair and my good friend Hilda Solis for having me take 
part. I did attend one meeting before you became the chairman. 
I hope to get back on the commission because I think that this 
is the commission that does the important work globally. I am 
so pleased to have come in at the time that Dr. Ojeda was 
speaking because I'm an alumni of this university.
    I think you summarized what migration and the focus on 
migration means to the global economy that we are in 
internationally. We cannot hide from the fact that we must 
receive the talents and skills of those who choose to come here 
because they do enrich our economy and our country. We are no 
longer a country that can live in isolation.
    As Hilda can tell you, we are surrounded, particularly here 
in California, with people whose attitudes are, ``Keep them 
out.'' But we are finding our work force is diminishing, those 
with skilled sets are diminishing and we are finding that the 
salaries are not keeping pace with the rise in the economy. We 
have got to figure this out because the people who come here 
legally or illegally, they come to work. They take the jobs 
that Americans no longer want to do, and I'm highly aware of 
this.
    What the panelists need to know is that the political will 
in Congress is not there to deal with this issue of immigration 
in its complexity. We say many things, but when it comes down 
to working out solutions to be able to utilize the people who 
come here but to have them come through a door of acceptance 
has not really been attended to like it should. So I want the 
audience to know we are tied in to the rest of this globe, we 
are tied into it economically, and we will be tied into it 
culturally. We have got to understand the cultures and the 
beliefs of other groups, and particularly those who are not as 
fortunate as we. Otherwise, we become the target. I'm not going 
to go into that piece of it, but we have to know how to live in 
this global economy that we are in, we have to know how to 
trade, and we have to know how to invite people.
    As I was reading through the materials, I think the best 
suggestion that has been made out of all of those who have had 
input today is that we probably need to expand green cards. Let 
people who are not citizens come and get a green card, but we 
need to monitor them to be sure that when time runs out they 
return. I think the ICE operations where they come in and do 
the raids and they split families and they take workers off is 
an indignity and crime. Let me put it like that.
    The migrants that come to Southern California in the area 
where we live, we work, and we represent come to work, and the 
remittances that they send back home keep people alive right 
across the border. I have explained to my constituents that 
there are no lines in the sand. People who once were in control 
of this area feel that they can go back and forth across the 
border.
    Fences will not do it. So we have to get out of this 
ideology that you put a fence up and you block it and you keep 
somebody out. We are going to have to control the flow over 
these borders, and it takes those at the highest level of 
government to do that. The highest level of government. Our 
president and I think we are going to have a new president 
quite soon, and they are going to have to negotiate.
    But I am so pleased that the Helsinki Commission is looking 
at the impacts regionally. As you know, California as being a 
nation state, the sixth largest economy in the world, is very, 
very important when we consider because many, many of our 
immigrants come from over the Pacific, Southeast Asia, over the 
border, and they migrate within the United States from the 
colder, over industrialized northeastern--they are bypassing 
Texas and coming here.
    For the Helsinki Commission to look at the impact of 
migration is a very important focus, Mr. Chairman, and I want 
you to take that back to the commission, because we can be 
anywhere in this globe in nine or ten hours, as you know, and a 
free trade issue we have to look at to be sure there's balance 
in trade and that human rights are observed on both ends.
    When you come here to Los Angeles and you take a look at 
migration, you are going to get a composite of all of the 
complexities that we deal with when we talk about migration. So 
I want to thank the panelists. I came in to hear exactly what 
we needed to hear. Would you come to Washington and help us 
work through this immigration bill?
    I would ask the chairperson and the co-chair if we could 
invite people to e-mail us their ideas about how we can enhance 
the immigration proposal that the Hispanic caucus has already 
put forward. Obviously, we are not ready to deal with it and 
that's why it hasn't come to the floor and hasn't passed. We 
are not sure that all of the aspects of immigration are 
considered. But I certainly welcome the input from our 
witnesses and people in the audience on how we can enhance not 
only California, not only this region, but the United States 
and our relationship to the rest of the world.
    Thank you so much for holding this hearing today. I'm going 
to stay as long as I can, and that's about the next 20 minutes. 
We have a tough schedule today.
    Ms. Solis. Thank you for your statements, your very 
eloquent statement, Congresswoman Watson.
    Our next speaker is Ms. Lucy Ito. She is the senior vice 
president of research, communications, and credit union 
development for the California and Nevada Credit Union Leagues. 
She is well versed in remittances and previously worked with 
the World Council of Credit Unions for 14 years where she 
provided management oversight for International Remittance 
Network.
    The issue of remittances is particularly important to 
understand given the critical role that they play in the 
development of countries. It is even more important to 
understand today given the impact of the slowing economy and 
the impact that that will have on those developing countries as 
well.
    So, as you begin your testimony, we look forward to hearing 
what solutions and advice you have for us. Thank you, and 
welcome, Ms. Ito.

LUCY ITO, SENIOR VICE PRESIDENT, CALIFORNIA CREDIT UNION LEAGUE

    Ms. Ito. Thank you, special representative Solis and 
Congresswoman Watson. I'm honored and it's a very big honor and 
a pleasure to be here this morning. As Congresswoman Solis 
mentioned, I'm here not only representing the California Credit 
Union but also the International Credit Union System, which has 
helped educate the United States Credit Union System on the 
importance of remittances.
    Instead of reading my testimony, which is quite long, I've 
prepared one for you. There is a handout that I think will 
enable us to get through the points more quickly. If I could 
ask Alex to please provide those. As the handouts are being 
distributed, let me make a comment about the immigration 
context for remittances. Dr. Hinojosa-Ojeda mentioned the 
degree of immigration that is taking place worldwide.
    According to our country's last census bureau, 10.3 percent 
of the U.S. population is foreign-born. Depending on what 
estimations you look at today, we are talking about 28 to 30 
million recent immigrants, foreign-born immigrants. It won't 
surprise anyone in this room when I make the observation that 
it's the youngest, the poorest, and the most recent immigrants 
who typically are the ones sending money back to their homes. 
It's not a coincidence that this same group also happens to be 
the most unbanked population both here in this country and 
relatives of theirs back in other countries.
    If you look at the table on the top of what would be Page 2 
in your handout, Congresswoman Solis mentioned the Credit Union 
International Remittance Network, IRnet. About ten years ago, 
because of work that the World Council of Credit Unions was 
doing in Guatemala and El Salvador, we were very shocked at the 
rates that were being charged to remit money back then.
    A few of us were talking earlier about 40, $50 to send $100 
to another country. It was because of that that the California 
Credit Unions and World Council of Credit Unions and other 
folks decided to experiment, could we remit funds for a more 
affordable price. Back in 1997, we introduced IRnet where 
there's a flat $10 fee. We are very pleased that the market has 
matured, recognized that that's a rate that's out there, and 
today the going rate is $11 per remittance. If you look at the 
chart that is at the top of Page 2, you'll see in 2007 the 
IRnet system remitted $578 million from the U.S. to other 
countries. That equates to 1.5 million transactions in 2007.
    This year, in 2008, it's going to be very interesting to 
see how the U.S. economy affects remittances, but right now for 
first quarter of 2008, $127 million has been remitted through 
IRnet, and that was a total of 350,000 transactions. That's for 
the first quarter of 2008. If we stay on that track, it looks 
like we are going to be at about the same level that we were 
for 2007. In a couple remarks I'll be making about global 
remittances, there's reason to believe that that may taper off 
due to the U.S. economy.
    I wanted to make a few comments about IRnet before I talk 
about global remittances. It's not to tout IRnet. It's what we 
hope other remittance transfer programs will do. Something the 
credit union remittance program does is, in the receiving 
country, it does not require a recipient to have a bank account 
in that country. The remittances are delivered to a person's 
home or--in that case they get it in the form of a check, or 
they pick it up at a credit union or some other site.
    This is important because in other countries, developing 
countries, the unbanked population is estimated to be 80 
percent of the population. If you don't have a bank account, 
you can't receive traditional remittances so it's important 
that there are some nontraditional remittance options.
    Secondly, often people are cheated with the exchange rates 
they are quoted here, but when they remit the money, it is not 
the same exchange rate that is used when the money arrives to 
its destination. Credit unions are making sure that rate is 
guaranteed until delivery.
    Thirdly, often foreign recipients are charged a receiving 
fee at the other end. That's terrible. That adds to the 
ridiculousness of gouging people. Dr. Hinojosa-Ojeda mentioned 
that new technologies coming through the IRnet system at the 
moment is more traditional. People bring cash, send it out. 
Besides the mobile phone technology that's coming up, I'm 
pleased that card technology is going to enable us to send 
remittances using debit cards in other countries, so we would 
be delighted to keep you posted on that technical development.
    Let's move to remittances globally. I was really pleased to 
hear the figures before. The World Bank does not estimate all 
remittances but only those that are recorded and they can see 
that there was a lot of unrecorded remitting happening. In 
2007, the World Bank estimated that $240 billion was remitted 
around the world, up from 221 billion in 2006. These recorded 
remittances equal two times international foreign assistance to 
developing countries.
    So let's say international aid is approximately $120 
billion a year, remittances are double that amount. The World 
Bank estimates that these remittances amount to two-thirds of 
foreign direct investment globally, and certainly remittances 
are the largest and least volatile source of external finances 
in many a poor country.
    In Southern California here, we have many diverse 
communities, many represented from Latin America and Caribbean 
countries. That's certainly the largest region that's receiving 
remittances estimated at $60 billion in 2007. The Inter-
American Development Bank has made this observation. They have 
said that remittances may be more than doubling the income of 
the core 20 percent of the population in Latin America and 
Caribbean.
    Turning to our last page here, I did want to share with you 
observations that have been made about the economic impact in 
other countries. You will see on this page that I am only 
taking the top four or five examples of each.
    You look at GDP in a country like El Salvador. The 
remittances that go into El Salvador total 15.1 percent of GDP. 
In an extreme case, Haiti remittances account for 24 percent of 
GDP in that country. Nicaragua, 20 percent of the GDP is the 
amount of remittances in that country. If you look at 
participation by local population in receiving remittances, in 
El Salvador 28 percent of the El Salvadorian population receive 
remittances, Guatemala 24 percent, and Mexico 18 percent.
    Congresswoman Watson made this comment about how everything 
is interconnected in the economies. That is so true. A very 
disturbing observation that we have made is that if you take 
Mexico alone from 2002 to 2006, each year remittances grew by 
20 percent, so you would expect in 2007 another 20 percent. 
Instead, for the first three quarters of 2007, remittances to 
Mexico had only grown by 1.4 percent as compared to 20 percent 
in the previous five years.
    Looking at why that might be, the conclusion has been that 
the weak job market in the U.S., especially in construction 
where a lot of Mexican immigrants are employed, that has 
contributed to this decrease, and also the tighter border 
controls that are being practiced have meant that fewer people 
are coming here, so fewer remitters are here to send back 
remittances.
    I will end my comments there on remittances, but I did want 
to thank all three of you as co-sponsors of HR 1537, the Credit 
Union Regulatory Improvements Act. I'm not pitching for it 
here, but if that passes, that will enable us to open credit 
union services to more underserved communities.
    Another problem--yes, there are limited services, but often 
immigrants are also victims of pay day lending. This would 
allow credit unions to offer pay day lending alternatives to 
underserved communities. Thank you.
    Ms. Solis. Thank you very much. Because of schedules here, 
I want to accommodate Congresswoman Watson and will ask her to 
go ahead and ask a series of questions for five minutes and to 
direct her questions to the panel.
    Ms. Watson. You said something, Ms. Ito that just caught my 
attention, pay day lending and it's such a rip-off, and it also 
was mentioned to send monies, remittances of $100, you are 
going to pay 50.
    We are going through, at this particular time, with the 
banking market out there and the different items they come up 
with to really gouge people, so when we talk about the 
complexities, we have to include how remittances are gouged, 
and they are making money and the persons at the other end who 
are the recipients really lose.
    You were talking about the credit unions and you mentioned 
that there would be a card. Could that card be then converted 
into the cash of the country of the recipient?
    Ms. Ito. Yes.
    Ms. Watson. It's like the telephone card?
    Ms. Ito. It would be a debit card that you put in the 
machine of the receiving country and get local currency.
    Ms. Watson. Very good.
    Dr. Hinojosa, and I called you Dr. Ojeda. I know those are 
hyphenated names so I can take my choice, right?
    Mr. Hinojosa-Ojeda. That's right. Thank you.
    Ms. Watson. How do you view the future in terms of 
migration, immigration, legally and illegally on this area of 
the country, Southern California? I know you've done a lot of 
research. I've followed you over the decades, and what do you 
see for the future?
    Mr. Hinojosa-Ojeda. I think the question also is what would 
be the optimal. I think it's inevitable that we are going to 
have to bring in a significantly larger share of the workforce 
going forward from immigration.
    In fact, if we don't have immigration, we will be having a 
substantial decrease of close to ten percent in the population 
without immigration. So we need to be growing not only 
positively in terms of the workforce size, but as you were 
mentioning, also the nature of the skills.
    This is a combination of both bringing in the right types 
of workers, recognizing how we are integrated with certain 
parts of the world, but making sure when they get here they are 
as quickly as possible brought in with full rights and economic 
opportunities to make them the most productive as possible.
    Remember, we have, in a sense, a reservoir here. IRCA, 
another thing it did in terms of skills, as soon as 
legalization took place, people's own spending on their own 
capital, human capital increased by over 200 percent, GEDs, 
ESLs, and on-the-job training.
    We actually are looking at productive increases from that 
that more than outweighs this positive impact, which are wage 
increases. We can bring in, and we are estimating, again, about 
12 percent to 14 percent of the growth in a positive way has to 
come from immigration, and it can be done at a higher wage and 
skill level. If I can say one quick thing about the technology 
issue. This is something that we have spent a lot of our time 
lately on, working with what is the problem, why don't we have 
the banks and the credit unions and now the cell phone 
companies?
    There are the debit card solutions. That is definitely part 
of what we already sort of studied and worked with the Ford 
Foundation and California Credit Union League, and that's a 
major advancement. But the problem is the credit unions--the 
debit cards, you need ATM machines and POS, and most of the 
countries don't have that, and that's what's interesting about 
the cell phone.
    El Salvador is a hundred percent cell phone ready today in 
the smallest villages. So marvelous things are happening even 
in the so-called backward countries like Kenya.
    Ms. Watson. You triggered something in my mind when you 
said cell phones. I started going to Kenya in the early '80s. 
When you get away from Nairobi and you really get out in Masai 
territory and people are walking in their costumes, I come back 
20 years later and everybody is running around the bush with a 
cell phone.
    Mr. Hinojosa-Ojeda. You know what they are doing now is 
they are using their cell phones to send money within the 
network. That's what I've been doing, traveling the 
Philippines. As another very important example, we don't have 
it here. It's absurd. Right in Latin America--in L.A., 
everyone's got two cell phones, right? I should say we are and 
the students all here are part of a project where we are 
Google-mapping every single money remittance location, check 
casher, and pay day lender. What we are doing is we are 
measuring the amount of money that's being taken out of the 
community through this unnecessary cost. Ms. Ito said its $10. 
There's no reason it's not less than $2. The technology is 
there to do this.
    We've analyzed the economic impact of moving toward this 
new type of technology and giving people--anybody who has a 
phone number can essentially have a virtual bank account now. 
That technology is available now. The economic-multiplier 
effects, we are studying it right now in the L.A. areas, and 
some of your districts are part of our study areas. We have 
multiples of economic growth that can happen as a result of 
this empowerment. In the villages, it's more than ten times. A 
village that moves towards having their money arrive, not in 
cash, but with a local micro-finance institution that can then 
lend money for productive activities, things that the whole 
town associations spear-headed now can be done on a much 
broader scale. It's a very, very important time. We really need 
to focus having that as an integral part of migration and 
remittance negotiations, next year and take advantage of this 
huge new interesting possibility.
    Ms. Watson. What is really frustrating to us is that we 
know the politics of all of this. And rather than a resolution 
to these problems, we get tied up with the politics of it. 
Believe me, that's where we are right now. I mentioned before 
it's going to take a whole new way of thinking about this under 
a different kind, not ideology, but an open mind, thinking how 
we play into this global atmosphere in which we find ourselves 
now. We need not kid ourselves. It's all political.
    What happens with this border to the south, we don't have 
the same problem with the north? Have you noticed that 
difference? So it operates in an arena that is not always 
authentic. I want to say this to Reverend Estrada. I'm sorry I 
missed your testimony, but I was reading the background on this 
hearing and I know many of our churches have become 
sanctuaries.
    Mr. Estrada. Yes.
    Ms. Watson. And there is a counter-movement, and we see it 
where we work, too, for giving sanctuary to people who are here 
without the correct credentials. Can you remark at this point 
how strong the sanctuary movement, I know that our bishop here 
has offered our archdiocese as a sanctuary and getting a whole 
lot of political pressure. Can you give us a view into the very 
near future as to this movement?
    Mr. Estrada. The movement is a national movement, so there 
are 52 different faith communities that are part of the 
sanctuary movement. We believe its saving lives. We don't want 
families to be broken apart. Our hierarchy is not fully, I 
guess I would say supportive, supportive in the sense of how we 
are doing it, to take in a family or a person into your church 
for a period of time that has a deportation order. It's a 
little bit controversial. But I think morally it's the right 
thing to do.
    Out of 52 faith communities in the country who are stepping 
up to the plate, and it's all about faith, all about what you 
believe is right and moral, but the real work is trying to 
change policies, trying to change the current policy.
    In Los Angeles, each one of our five families who have been 
working really hard with attorneys to try to get them to reopen 
their case, to reconsider, so that they could stay here with 
their children because they have--each one of the families has 
a U.S.-born citizen, and we are adamant about the separation of 
families. The heroes here are the people that say, ``Yes, I 
will go into sanctuaries.'' It's a sacrifice for them. Is it 
going to grow and make a big difference? It will in a small 
way, but it's people of faith standing up for what they believe 
in.
    Ms. Watson. Thank you so much to all of the witnesses, and 
I appreciate you holding this regional hearing here so we can 
air from a different point of view than what we get in 
Washington, D.C., all the time.
    Ms. Solis. I'm going to defer to my colleague, Alcee 
Hastings and the Chairman, to begin his round of questioning.
    Mr. Hastings. Thank you very much. I won't take much more 
time because of the fact that we have additional witnesses. 
Early on, the counsel general of Honduras was here, and I'd 
like it if we could recognize her. I know there are others. I 
also know that our dear friend and colleague is going to have 
to leave because of previous commitments she had told us about. 
Diane, I want to thank you.
    Particularly, let me see a show of hands of the students 
that are in college. Okay. You know the term, using a sports 
metaphor, of an impact player. Well, you today, if you have not 
seen or heard of Diane Watson, you have seen a real impact 
player in the lives culturally, socially, economically, and 
politically of this community. She is indeed a living legend, 
and I'm glad she is with us today.
    Thank you, Diane.
    Ms. Watson. Thank you very much.
    Mr. Hastings. I only have one question, and I'll try to 
approach it from the standpoint of Father Estrada. You and I 
have lived a few decades and we have seen and heard immigration 
discussions. How do you compare the current migration debate 
with that of previous eras? Is there any specific advice or 
factors that you would urge that we as policymakers look at? 
That will be my only question.
    Mr. Estrada. Our church, La Placita, Queen of Angels 
Church, is right in the center of the city. In the '30s, there 
was this immigration, these immigration raids. They say that 
immigrants would run into the church seeking safety, sanctuary. 
There have been immigration raids, immigrants that were not 
wanted and so forth. But I believe that today it's a lot 
meaner. It is a force that is immoral. It's an issue that has 
to be looked at as a moral issue.
    I believe that the faith communities have a lot to say 
here. There is a growing movement of interfaith communities 
that really are stepping up to the plate, organizing, are 
coming together, and really being a witness. I guess to answer 
your question, it's a lot meaner, it's a lot deeper, and it 
needs to stop.
    Mr. Hastings. Thank you very much. Madam Chair, I know we 
have other witnesses and I don't want to get too far into that. 
I won't ask additional questions, and I've taken all your 
information to heart, Ms. Ito.
    Ms. Solis. I want to mention to the audience that we will 
be posting some questions for our witnesses, and they can 
respond and we will post that on the Web site. But I wanted to 
thank you, Father Richard, for coming. You mentioned three 
individuals that you have worked with that have been now 
successful that may have come in without documentation. What 
kind of resources did you use to make that happen? How did that 
come about?
    Mr. Estrada. Well, we are a nonprofit organization, 501(c), 
and we develop programs for education, and we don't ask, ``Are 
you documented or undocumented?'' We create a program for 
advancement, a program of learning English to learning how to 
get a job, et cetera, health programs, and so forth, and they 
become part of a population that we work with, and that's how 
we do it.
    Ms. Solis. What is your source of funding, primarily?
    Mr. Estrada. Primarily, we get government funding from the 
city, from the county, we get private funding, and the future 
doesn't look that good. There's a lot more work that has to be 
done. We have here with us our program directors of Jovenes, 
Inc., and our grant writer that are here today. Yes, it's not 
only Jovenes but organizations that reach out to youth and 
families that are getting the brunt of the economic situation.
    Ms. Solis. Thank you, Father Estrada, for your work. I 
wanted to pose this question to Dr. Hinojosa. We talk a lot 
about remittances and the importance and the economic strength 
that provides to the sending countries in terms of the benefits 
that they get.
    Have you seen in your review of how remittances are used if 
countries, for example, like Mexico or maybe Indonesia or 
Asian-Pacific communities, if there's any movement to utilize 
those remittances to build an infrastructure? Because I think 
that's something of great concern, and people in Europe are 
talking about that as well.
    As we see people migrating from, say, old Eastern European 
countries, as an example, they are coming up to work in Spain 
and Greece and Germany, and they are sending that money home, 
and in some cases there is a system to send that money--to bank 
it back from the sending country, and they actually created an 
infrastructure of hospitals, housing, things that actually add 
stability to the country.
    Can you reflect on that? Have you seen any of that?
    Mr. Hinojosa-Ojeda. I got off the plane this morning. We 
were in Mexico meeting with various state governors. What we 
are doing is something very interesting. These are, of course, 
monies that belong to families and they need it to live on. But 
if you move it through a banking system and you create an 
infrastructure of saving and investment, that investment can 
then have very significant local impacts.
    One of the things we know about migration and remittances 
is that people are migrating to save money, to try to save 
money. What don't exist are basically institutions that produce 
products for savings. One thing we are doing for various states 
now is to create a development savings bond for remittances so 
people can, through their cell phone, send the money back and 
put a little bit of it into a savings account which they are 
receiving a return of investment and then that gets matched 
through this notion of 3 for 1.
    Instead of 3 for 1 for individual projects which again was 
breaking through, as you know, Zacatecas and various other 
communities, now we can take it to a larger level. We can 
create local savings bonds for development in the States, and 
with the federal government and the international development 
institutions leveraging that, and then those funds can be used 
for a wide variety of things, infrastructure for housing, and 
also for productive activities.
    We are doing something quite interesting now where women's 
cooperatives in Mexico are producing USDA certified organics 
and nopales, and everybody loves nopales, right? The market for 
these foods is now bigger in the United States than in Mexico, 
and now this creates new small business opportunities here for 
companies to import this working directly with economic 
advancement on a scale unprecedented. That's how you can 
leverage these remittances to really provide economic activity 
on a sustainable basis and a tax base which can then support 
the infrastructure investments and be educational.
    There's a way out of here. There are absolutely clear 
cases. The answer goes directly to our streets in our 
neighborhoods, and that's what we have to focus on, create, at 
the local level, working with the churches and credit unions, 
all this networking and we can solve the problem like we run 
our daily lives here.
    Ms. Solis. I think maybe later on I can get a response from 
Dr. Hinojosa and Lucy Ito. I'm curious about the amount of 
money that goes untracked through money orders, and I think 
about my own family when my mother years ago would issue a 
money order, send it back to Nicaragua, and are we able to 
track that?
    That also is evidence that there is economic strength and 
stability that is being exposed to those Third World countries. 
And not just Central America, but I know it's in the Asian-
Pacific regions as well. Those are things I'd like to get 
information back on. Let's thank the panelists. This is a very 
good discussion.
    With that, we will transition to our second panel of 
witnesses. I'd like to ask Kerry Doi to come forward, Ms. 
Angelica Salas, and EunSook Lee, please come forward and join 
us at the table. We are going to dive right in. We are going to 
begin with our first panelist, Mr. Kerry Doi, who is the 
executive director and president of Pan-Asian Consortium in 
Employment, better known as PACE, the largest Pan-Asian 
community development organization in California.
    PACE was founded back in 1976 with an initial grant from 
the City of Los Angeles to address the employment and job 
training needs of the Asian-Pacific islander communities. In 
the last 30 years, PACE efforts have broadened to include 
workforce development, housing, business assistance, and early 
childhood education. Two years ago I was proud to have the 
opportunity to join PACE to honor 11 women, who were small 
business owners, with checks of $1,000 to help them begin their 
new companies. I looked at it as micro-loans, and so I know 
that it's a very successful program. With approximately 300 
employees speaking 26 different languages and dialects, Mr. Doi 
will speak to us about the services such as housing programs, 
job training placements, and youth education and business and 
economic development.

   KERRY DOI, PRESIDENT AND CEO, PACIFIC ASIAN CONSORTIUM IN 
                           EMPLOYMENT

    Mr. Doi. Thank you. Thank you very much, Representative 
Solis and Mr. Chairman. It's an honor to be here, and this is a 
really important occasion. So because it was so important, I 
wracked my brain about what kinds of things to say and came up 
with about 30 minutes of remarks. But in the interest of time, 
I will try to highlight it and cut it down to five minutes. I 
did submit my written testimony to the panel.
    Mr. Hastings. Thank you.
    Mr. Doi. So I will try to rip through it quickly and 
highlight some major points.
    As Congresswoman Solis said, we are proud to have been of 
service for over 30 years in Los Angeles. And since 1976, we 
have served more than half a million illegal people living in 
the Los Angeles area. Of these, almost two-thirds have been and 
continue to be people who are new to the United States. Having 
worked with hundreds of thousands of immigrants over the past 
31 years, we believe that we learned a little bit about what 
works and what does not, and we welcome the opportunity to 
share some of what we have learned with the commission.
    As you know, the County of L.A. has one of the largest and 
fastest-growing immigrant populations in the United States. 
Immigrants bring a huge surge of energy and possibilities to 
the entire area. Founded in '76 by leaders in the API 
communities in L.A. know that having a job is critical to 
economic prosperity.
    Over the years we have added programs that provided 
complementary services to our primary target population. Today 
we offer, as the Congresswoman said, a full range of programs 
and services to help families achieve economic self-sufficiency 
including energy conservation, early childhood education, 
affordable housing development, asset building and financial 
education, and small business development.
    What makes our program work to empower immigrants to use 
their skills, energy, and ingenuity to fully engage with their 
new country and make a positive contribution? First and 
foremost, we believe that you must respect the heritage and 
experience. More than 85 percent of our staff speaks one or 
more languages in addition to English. It's more than language. 
It's also important to understand the culture and life 
experience of our clients. One example is the problem of 
getting the immigrants to use banks as has been stated earlier. 
Many come from countries that have unstable or nonexistent 
banking systems. Many escaped from repressive governments, and 
as a result, not only do they not understand our banking 
system, they don't trust any banking system.
    Traditional means of outreach and program improvement won't 
work in this case. Trust, word of mouth, referrals and 
experience over time with friends, relatives, and neighbors are 
essential elements to be able to effectively reach deep into 
immigrant communities and be considered an organization to be 
trusted. So what kinds of programs and resources and services 
are needed?
    PACE has identified eight program elements that we offer 
that we believe are critical to effectively empower migrant 
communities and promote prosperity. No. 1, English as a second 
language, because overcoming the language barrier is a must for 
people to fully participate in our system. No. 2 is financial 
education, as has been stated earlier, and I don't want to beat 
that point. But No. 3, asset accumulation, is important, and 
building on financial education. There are many existing 
government and private bank programs to help low-income people 
leverage their resources and promote savings. No. 4, job 
training, as stated earlier, is vital to economic self-
sufficiency. No. 5, business development, because many 
immigrants become entrepreneurs because it offers the most 
immediate and sometimes the only way for them to earn a livable 
wage. No. 6 is affordable housing. The high cost of housing in 
Southern California is legendary and true. No. 7, comprehensive 
family services. Finally, mentoring and advocacy. The 
transitional trauma that impacts individuals and families who 
immigrate to a new country cannot be underestimated.
    This is exacerbated if the reason for the immigration is 
because of war, persecution, political instability, and a 
hundred other reasons. Our staff and clients have stories of 
their journey to America that would make you weep, brothers who 
disappeared, children who drowned in sight but out of reach, 
families living in foxholes and eating bugs.
    That they arrived in the United States at all is a miracle. 
Many of the men and women in PACE have shared that experience. 
It infuses what we do with an appreciation, a respect, and a 
humanity that transcends programs and funding. We work very 
hard to identify programs that share our passion for low-income 
people of all ethnicities and nationalities who want a chance, 
and we try to give them that chance.
    So what proactive policy development could government 
undertake to help PACE do what we do better and for more 
people? Eight critical areas immediately come to mind. One is 
direct job training funding to community organizations that do 
not trickle down through the state and local government. No. 2, 
expansion of the Community Reinvestment Act to include the new, 
emerging class of banks that are currently exempt, such as 
insurance companies or retail-sponsored banks. No. 3, 
restoration of the Community Reinvestment Act to again include 
banks that have been exempted over the years. No. 4, elevate 
and increase affordable housing responsibilities for 
government-sponsored enterprises. No. 5, we need Congress to 
insist on continued enforcement of Title VI of the Civil Rights 
Act of 1964, which says that ``Simple justice requires that 
public funds, to which all taxpayers of all races, colors, and 
national origins contribute, not be spent in any fashion which 
encourages, entrenches, subsidizes or results in racial color 
or national origin discrimination.'' No. 6, in light of Title 
VI, we need Congress to be diligent in their economic support 
programs such as those being discussed right now in response to 
the mortgage foreclosure crisis be equally available to people 
in need in all communities. No. 7, increased funding for 
refugee and immigrant services and inclusion of funding for 
services for political and economic asylees. Lastly, we need 
for Congress to have the kind of vision that sparked the 
community development movement in the 1960s. Foundations are 
trying, banks have stepped up to the plate, and the federal 
government's commitment to communities dwindles each year.
    In closing, I'd like to reiterate that America is a nation 
of immigrants. They provide a vibrancy, resilience, and energy 
to our nation. Programs that serve to ease their way into life 
in America are not expenses; they are investments, investments 
in America's greatest asset, our people.
    Ms. Solis. Thank you. Our next speaker is Ms. Angelica 
Salas, who is working with the Coalition for Humane Immigrant 
Rights of Los Angeles, known as CHIRLA since 1995. CHIRLA was 
initially created to help coordinate between directors, service 
providers, and advocacy groups dedicated to advancing the human 
and civil rights of immigrants and refugees in Los Angeles. 
CHIRLA's staff of 30 runs over a dozen programs to help educate 
immigrants about their rights, offer legal aid referrals, train 
immigrants to become leaders, and assist in employer/employee 
wage disputes. They are also an important voice for humane 
policy at the local, state, and federal level.
    Ms. Salas, welcome, and thank you and please give us your 
five-minute testimony.

    ANGELICA SALAS, EXECUTIVE DIRECTOR, COALITION FOR HUMAN 
                IMMIGRANT RIGHTS OF LOS ANGELES

    Ms. Salas. First of all, I want to say, Madam 
Representative, thank you so very much and also Congress for 
hosting this hearing and for having this forum. It's so 
important that we get to voice from our perspective from the 
ground what is happening in immigrant communities and also to 
celebrate all their many contributions.
    CHIRLA was formed in 1986 to advance the human and civil 
rights of immigrants and refugees in Los Angeles, promote 
harmonious multi-ethnic and multi-racial human relations, and 
through coalition building, advocacy, community education and 
organizing, empower immigrants and their allies to build a more 
just society. I speak before you today to testify to the great 
and open secret in our midst that is the often unheralded fact 
of the immigrant contributions to the County of Los Angeles 
despite the many obstacles in their way.
    As an immigrant rights organization, CHIRLA has been 
witness to the powerful presence of immigrants in our county 
and their amazing contributions to development and 
transformation of Los Angeles. The future of Los Angeles hinges 
largely on how we integrate and provide better opportunities to 
the millions of immigrants in our midst.
    The Migration Policy Institute, in a recent report on 
immigrant integration, revealed that Los Angeles County remains 
the largest immigrant metropolis in the nation with more than 
one-third of its 9.9 million residents and nearly half its 
workforce comprised of immigrants.
    Consider also the following data from an upcoming report 
that we are releasing today called ``A Closer Look: Fortress of 
Immigrants in Los Angeles,'' and I will provide you with a 
copy. In this report we have compiled over six years of 
information collected from different reports that have been 
distributed within the last six years, but often I think are 
shelved and we don't really understand the great information. 
This report basically says that the City of Los Angeles is home 
to people from more than 140 countries who speak at least 224 
different languages.
    Los Angeles County has the largest population of Asians in 
the entire United States with a total of 1.3 million people. 
The county has the largest population of Hispanic or Latino at 
4.7 million people. By 2050, these populations are expected to 
grow 200 percent and 187 percent respectively. Additionally, 
over 30 countries have the largest representation of their 
nationals outside of their home country here in Los Angeles. 
Examples include the largest population of Mexicans, Central 
Americans, and Iranians.
    The percentage of Los Angeles County residents age five and 
older who are foreign born as of 2006 is 35.4 percent. In 
addition, 63 percent of children in Los Angeles County are 
members of immigrant families. However, 87 percent of these 
children are themselves U.S. citizens. The percentage of Los 
Angeles County residents who speak a language other than 
English at home is 53.6 percent in 2006.
    Immigrant worker populations in Los Angeles County are 
concentrated in a variety of sectors which vary according to 
their immigration status. Immigrants as a whole are highly 
representative, in contrast to the general population, in 
manufacturing and personal service trades.
    In terms of percentages of the labor force as a whole, 
immigrants in Los Angeles County, including the undocumented, 
make up 59 percent of the service sector workers, 80 percent of 
production of manufacturing workers, 67 percent of construction 
workers, 62 percent of transportation workers, 61 percent of 
installation workers.
    And even in fields where immigrants are less likely to 
work, their numbers are significant. They account for 30 
percent of professional workers, 38 percent of office support 
workers, and 34 percent of management and business workers in 
Los Angeles County. Los Angeles County is an immigrant county.
    As of 2005, first-generation immigrants have started at 
least 22 of Los Angeles's 100 fastest-growing companies. 
Immigrant entrepreneurs in Los Angeles have founded nationally 
successful firms such as El Pollo Loco, Panda Express, and 
LuLu's Desserts.
    According to one estimate, immigrants are starting as much 
as 80 percent of all new businesses in Los Angeles. Throughout 
Los Angeles, immigrant entrepreneurs are revitalizing whole 
neighborhoods, opening up business and creating jobs, not just 
for themselves but for all Angelinos.
    According to the Los Angeles Economic Development 
Corporation, immigrants play a vital role in the fashion, 
furniture, and food-processing industries, the main engine for 
the local economy. Immigrant participation in these industries 
produces millions of dollars in tax revenues and accounts for 
tens of thousands of jobs. The three industries together 
created 495,000 jobs for immigrants and U.S. citizen workers 
and paid $103 million in local sales taxes in 2006.
    CHIRLA works with low-wage immigrants in the underground 
economy. These are workers who are day laborers, who are 
household workers who care for others' homes and others' 
children and their elderly parents.
    We also work with street vendors. These are men and women 
who many of them and many of the successful restaurants 
actually started by people who first started as street vendors, 
individuals who sell food and who sell wares on the streets of 
Los Angeles, a very thriving economy.
    Unfortunately, these are also the industries in which we 
see some of the worst abuse, day laborers who work many, many 
hours a day who don't get paid, not even for the work that they 
do, household workers who, after we did a report in 2004, we 
found that some of the average wages for some of the household 
workers was $2.37 an hour for their work.
    Street vendors who are not allowed to work in the city of 
Los Angeles, even though they pay business taxes, even though 
they pay permits for their carts, yet in the city of Los 
Angeles it is illegal to be a street vendor. A worker cannot be 
illegal. It cannot be a crime to work.
    However, there are possibilities, and we have seen that 
through the creation of worker centers and through the 
organizing of workers in all industries, even the informal 
economy, this can change and workers can demand higher wages, 
can demand that their labor rights be represented, and together 
they can voice a change to their industries and change policies 
that basically keep them poor.
    We have also launched a partnership, now I think in its 
fourth year end, Playo, which basically is a collaboration of 
the regional Hispanic chamber of commerce. It includes most of 
the Latin American consulates, the Central America consulate 
chapter. We have here one representative, the Mexican, the 
diocese and the diocese of San Bernardino, an organization like 
CHIRLA, together in the past four years we have collected $6 
million in unpaid wages and back wages. It also includes the 
U.S. Department of Labor and the California Department of Labor 
all working together to make sure that at the end of the day 
people get paid for their work.
    Promoting civic engagement and language access will help 
immigrants better participate in their social and political 
environment. Immigrants know their social and economic 
possibilities are multiplied when they learn English. One-third 
of Los Angeles County adults or 2.3 million are limited English 
proficient. Today most English classes are filled to capacity 
and require additional government attention to meet the 
extraordinary need. With increased investment in English as a 
second language, programs all over Los Angeles will benefit.
    Over 60 percent of immigrants in Los Angeles have a high 
school or college or advanced degree. These are 60 percent of 
immigrants in Los Angeles. Many of their skills and knowledge 
are not utilized because there are few programs to recognize 
their credentials and help them incorporate into high-skilled 
employment. In 1999, CHIRLA began a program called Wise Up. 
Wise Up is an immigrant youth program where we go into the high 
schools and work with immigrant youths who are undocumented. We 
are in eight campuses in the city of Los Angeles.
    We also launched the California Network, which is a network 
of 29 college campuses in which there are undocumented 
students. I'm sorry, in the County of Los Angeles, we estimate 
that 10,000 young people for graduating every year who are 
undocumented, who do not have access to financial aid. Many of 
these young people are stellar students. Some of them are in 
this room. They are stellar students who cannot go on to school 
despite their grades and despite incredible willingness to do 
so.
    Right now, in the state of California, we have in-state 
tuition so children who can show they have been in the high 
school at least three years can actually have access to that 
in-state tuition, but we don't have access to financial aid. I 
know of parents who are working two and three jobs, one job to 
pay the rent, one job to put food on the table, and the third 
job to put their kids through schools.
    Opening up access to higher education and financial aid 
programs will also allow for the best and brightest to become 
professionals that contribute to Los Angeles society and tax 
base. Opening the doors of education to immigrants is critical 
to capitalizing on all the talent that immigrants have to 
offer.
    Immigrants in Los Angeles County are also contributing to 
the vitality of the Los Angeles County democracy. Los Angeles 
immigrants are active in campaigns to improve housing, 
educational, health care, and labor conditions in Los Angeles.
    Immigrants are central to improving conditions for all who 
live and work in L.A. Examples include the increase of wages 
and working conditions in the hotel and tourist industry in Los 
Angeles, the adoption of living wage ordinances, the protection 
of First Amendment right to work for day laborers, and the 
community for active citizens in Los Angeles are demonstrating 
to the rest of the country and the world that positive change 
can be achieved in their communities, and I thank the millions 
of people who are marching the streets of Los Angeles for 
immigrant families.
    Most recently, immigrants have filed a record 1.4 million 
nationalization applications, a demonstration of their 
willingness to become engaged in the American process. Most of 
the applications filed were from immigrants living in Los 
Angeles County. Yet there is little investment in the 
citizenship or the legal visa family.
    Billions have been spent on borders and interior 
enforcement while billions have been diverted from the 
citizenship and service provision. Fees have increased, but the 
services have not gotten better, and we see this by the backlog 
of citizenship applications and the legal visas, that there's 
many of them for many reasons that can be up to two decades.
    Immigrants thrive in a welcoming environment by creating 
social and cultural networks that encourage them to invest in 
the creation of safer, cohesive communities. Yet, over two 
decades of restrictive and hostile immigrant policies are 
having a detrimental impact on immigrants and their ability to 
advance politically, socially and economically.
    For many immigrants, their lack of access to a path of 
citizenship is relegating them to low-paying jobs with few 
prospects to achieve their full potential. As stated earlier, 
over one million undocumented immigrants live in Los Angeles. 
According to the Migration Institute, over 537,000 children 
have at least one undocumented parent in Los Angeles. For these 
children, their future is put in peril as a result of their 
parents' own uncertain future and threat of detention and 
deportation because of their immigration status.
    We run an immigrant assistance hotline and receive 15,000 
calls a year. Many of these calls are people who are calling as 
a raid is happening in their home. There have been residential 
raids throughout Los Angeles County. Homeland Security has 
instituted 75 fugitive operation teams. These are composed of 
five or six team members, and what they do is they go through a 
list of individuals who had previous deportation orders or many 
times were deported without them knowing.
    There is a list with a person's picture and, from my 
perspective, these are bounty hunters. They try to seek these 
individuals. Many times they don't find them. What they do find 
is other people who happen to live in the same address, and 
those people are picked up. We have seen raids in the city of 
Los Angeles that have devastated our community. I've seen and 
been with children who have been left behind because their 
parents have been picked up in these raids. For these children 
their future is in peril.
    The passage of just and humane immigration policies that 
include legalization for undocumented, decreasing the wait 
times for legal visas and increase in labor protections and 
economic opportunities will exponentially grow immigrant 
contributions to Los Angeles and the nation. And I could go on 
and on to illustrate the obvious: There is a great deal of 
untapped potential in our midst, and it is our loss as a 
community if we continue to fail in recognizing the critical 
need to address immigration integration issues in our county in 
a genuinely committed and coordinated fashion. We can no longer 
wait for a government to seize this momentum, especially when 
its enforcement-only policy sends the wrong signal to immigrant 
families and threatens everything that they hold dear about 
this country.
    Immigrant integration is a concrete manifestation of the 
American dream made real. We carry the responsibility of making 
sure that immigrant workforce participation is recognized and 
reinforced, and that the future generations of immigrant 
children join the mainstream of civic and economic life.
    As the facts of immigrant contributions continue to emerge, 
we can no longer hide from the consequences of inaction. The 
absence of just and humane immigration reform will continue to 
haunt our efforts at local integration if we also do not work 
towards addressing the policy gaps that exist to pursue 
positive integration programs.
    This is the challenge and opportunity before us, and I hope 
that as we have done so in the past, in the many battles we 
have fought with our immigrant families and friends, we will 
also rise to this challenge and make Los Angeles County the 
best example of how immigrant social, political, and economic 
incorporation is done.
    Thank you.
    Ms. Solis. Our next speaker is Ms. EunSook Lee. She is the 
executive director of the National Korean American Service & 
Education Consortium. This organization was founded in 1994 by 
local community leaders of Los Angeles, Chicago, and New York 
who recognize the strength in a common voice. Their main 
mission is to project a national voice on major civil rights 
and immigrant issues and to promote the full participation of 
Korean-Americans in their society through education, 
organizing, and advocacy.
    Ms. Lee will focus her testimony on the immigrant 
integration needs of the Asian Pacific Islanders in the area of 
education, health care, employment, and political advocacy. 
Thank you, Ms. Lee, for being here.

   EUNSOOK LEE, EXECUTIVE DIRECTOR, NATIONAL KOREAN AMERICAN 
                 SERVICE & EDUCATION CONSORTIUM

    Ms. Lee. Representative Solis and Representative Hastings, 
thank you also for giving me the opportunity to speak today at 
this hearing, and I've submitted written testimony, so I will 
try to keep to the five-minute limit.
    Given that there are one million Asian Americans and 
Pacific Islanders, who I will refer to as AAPI, are 
undocumented and 1.5 million are caught in the backlog, 
immigration reform is a priority we share with others who 
testified. Again, for this morning, I want to focus on 
integration of immigrants.
    In L.A. alone, there are close to 400,000 AAPI and 96,000 
Korean-Americans, of which 75 percent are immigrants. NAKASEC 
is a national consortium of community-based organizations that 
work directly daily with AAPI and Korean-American immigrants, 
and so we know what daily struggles we face, and we know both 
the successes and challenges that Los Angeles has sought to 
address the impact of migration. The City of Los Angeles and 
our nation, America, must recognize that we have a social 
compact with immigrants. Immigrants work hard to create the 
tools and resources that strengthen our city and nation.
    In exchange, they should not be driven underground as 
second-class citizens, but be able to take full advantage of 
those tools and be able to safeguard the health, education and 
progress of their families and participate fully in civic life, 
for the very future prosperity and security of America is 
incumbent of local governments and Congress to respond to 
migration by honoring and strengthening and not neglecting this 
social compact.
    The newly released report by the National Conference of 
States Legislatures found that in the first quarter of 2008 
more than 1,100 bills of largely anti-immigrant bills have been 
considered basically on the five issues of employment, 
identification/driver's licenses, law enforcement, public 
benefits and services, and education. What is encouraging is 
that while there have been publicized activities by vocal 
minority fanning the flames of anti-immigrant sentiments, few 
of these local anti-immigrant measures have actually passed. 
Moreover, it is our belief that immigrant integration is the 
antidote to anti-immigrant measures and sentiments. Communities 
that hate or fear immigrants are those who have never had 
contact with them.
    Integration is essential to breaking that ignorance and 
fear of the unfamiliar, and it is best done on the local level. 
I will focus on immigration integration of AAPI in the area of 
education, health care, and political. First with education. 
Throughout Southern California we have worked with thousands of 
students and their parents who are AAPI to advocate for access 
to public education at K-12 and post-secondary institutions.
    These students have been denied admissions primarily 
because of a misunderstanding of the federal immigration laws 
or California State Educational Code which explicitly protects 
immigrant students' rights to admission regardless of 
immigration status.
    Undocumented immigrant students, particularly from Asia, 
face the added barrier of being denied in-state tuition, again 
because of a misunderstanding of federal immigration laws. 
Education, as we know, is a chief determinant of an 
individual's future success and quality of life. And for this 
reason, it is of great concern for us.
    It is also important to understand that we must enable 
parents to become engaged in their children's activities both 
in school and education. At the heart of the problem is the 
inability of schools to provide multilingual communications to 
immigrant parents other than Spanish speakers.
    We have cases of young Korean-American kindergarten 
students waiting extra hours because their parents only receive 
notices of early school out in English and Spanish. We also 
have cases of Korean-American parents being forced to ask other 
bilingual parents that they can find at a parent night to 
interpret for them confidential information about their child.
    As a result of the public schools' failure to provide 
language access, limited English-proficient AAPI parents are 
disempowered from monitoring their children's academic progress 
or having a voice in determining school policies. Too often 
immigrant children or children of immigrant parents must 
navigate the educational system on their own, some 
unsuccessful. Provisions of language access are part of the 
solution.
    The other part is increased funding for English as a second 
language and civics classes for adults. Contrary to the myth 
that immigrants do not want to speak English, the experience of 
our L.A. center, the Korean Resource Center, which runs an 
English and civics class in partnership with L.A. Community 
College, there's a long waiting list of immigrant parents 
willing to enroll in English classes after an eight- to 12-hour 
workday. Immigrant parents do not question the importance of 
learning English, not only for work but also to remain a 
central part of their children's lives.
    On the issue of health care, nationally one out of two 
Korean-Americans lack health insurance. That is the highest of 
any community. This is because of two primary reasons. One is 
the high costs make coverage unaffordable and language barriers 
make coverage unusable.
    AAPI, particularly Korean-American households in Southern 
California, have the state's highest level of linguistic 
isolation. Quantitative and qualitative research shows that 
language barriers are associated with lower health education, 
poor doctor/patient interaction and lower patient satisfaction.
    These patients are less likely to receive counseling on 
proper diet, smoking cessation, and exercise habits. The 
immediate danger is that language barriers delay care, 
facilitate misdiagnoses, and wrong prescriptions could be 
dangerous for a patient's well-being. Sometimes it's fatal.
    We have on record a story of a limited English proficient 
Korean-American patient who was admitted to Queen of the Valley 
Hospital in West Covina suffering from kidney failure and 
diabetes. After a week's stay she began to feel better and the 
hospital made discharge plans.
    However, while attempting to go to the rest room without 
assistance, she fell off her bed and broke her right arm and 
hip causing her to prolong her hospital stay. A few days later, 
she complained about pain saying, ``Apah,'' which means 
``pain'' in Korean.
    The hospital staff did not attempt to find an interpreter 
to understand her repeated comments of ``apah.'' Finally, they 
asked her husband, who is limited English proficient, and they 
understood that ``apah'' meant ``pain.'' From that period on, 
the nurses would ask, ``Apah?'' and give her painkillers. They 
never asked where the pain was located or the extremity.
    When the niece came to visit, she was shocked in her aunt's 
treatment and questioned the hospital staff about patient 
communication and lack of interpreter services. Even after 
referring the hospital staff to PALS for help, an organization 
that provides free medical interpretation, the hospital 
continued to ignore interpretation requests.
    It was later discovered the patient had an infection in her 
arm which traveled up to her shoulder. A week later, by the 
time the infection was detected, it already entered her 
bloodstream and it was too late to cure. Complications from 
kidney failure, diabetes, and the new infection, the patient 
slipped into a coma and passed away. The entire time the 
patient simply said, ``I can't speak English, but I should be 
thankful that they are treating me.''
    Lastly, integration is socioeconomic but also political. A 
recent report by Grantmakers Concerned with Immigrants and 
Refugees found that 93 percent of AAPI children ages 12 to 17 
have an immigrant parent. Moreover, 28.5 percent of the sum of 
all potential voters in California in 2012 will be made up of 
immigrant voters.
    AAPI voters are referred to as the sleeping giant who must 
be stirred in order to advocate for policies that impact their 
lives. While only 52 percent of AAPIs who are U.S. citizens 
over the age of 18 are registered, 85.2 percent of AAPI 
registered voters did vote.
    In other words, while we suffer from lower voter 
registration rates, when registered, AAPI promises healthy 
rates of consistent voter participation, particularly when 
appropriate and adequate resources and support are provided. In 
seeking to cultivate a sustained culture in civic engagement, 
we have a responsibility to facilitate their engagement through 
comprehensive voter empowerment activities that are bilingual 
and bicultural. What is particularly exciting is the work that 
many of us on this panel are a part of within our own 
organizations, but also in coalition regionally and nationally.
    Unfortunately, rather than facilitating the political 
participation of immigrants, some state and federal governments 
may be making it more difficult for immigrants as naturalized 
citizens to fully participate. On April 28, 2008, the Supreme 
Court by 6-3 rejected a Constitutional challenge to an Indiana 
law requiring voters to show government-issued photo I.D. 
before voting. This ruling is expected to open the doors for 
other states to move forward with wholesale voter 
disenfranchisement tactics against ethnic and language minority 
voters. In my submitted testimony I cite more clearly how 
minority young people and seniors will be disenfranchised 
because of this specific law.
    In addition, more than one million legal permanent 
residents seeking to become U.S. citizens are now caught in the 
naturalization backlogs. The processing time will increase from 
seven months to 18 months. It's now estimated that half a 
million may not be processed before the November elections.
    These naturalization backlogs are a grave form of backdoor 
disenfranchisement. While Dr. Emilio Gonzalez, director of 
USCIS, has resigned, it is not clear whether USCIS will begin 
to take serious action to enable immigrants to become full 
participants of American society.
    In closing, not only is it important for Congress to focus 
on the enactment of a comprehensive immigration reform that is 
a workable solution to the problems of our nation's immigration 
system, but it must also work with local cities in focusing on 
key integration issues such as health care access, education, 
and civic engagement.
    Taken as a whole, I urge the committee to consider the need 
for holistic approaches that promote the full integration of 
immigrants. Like their fellow Americans, immigrants arrived to 
contribute to the greatness and strength of this nation, and at 
the same time expect that Los Angeles and America as a 
receiving city and nation will provide them with equitable and 
fair opportunities to build a better life for themselves and 
their children and their community.
    Thank you again.
    Ms. Solis. I will note the time, but the information that 
this panel has provided is very striking and very, very timely. 
A lot of issues that were raised here regarding the federal 
government's lack of movement in processing applications for 
legal residents to become citizens is a big issue and problem. 
We realize also the detention of youngsters occurring right now 
and the separation of families is something that, in my opinion 
personally, is immoral. We have, some of us in Congress, begun 
to discuss that issue.
    I do want to make clear that we do have legislation that I 
have introduced that would look at--it's called Families First 
Immigration Act, H.R. 3890. Whether or not it gets the light of 
day in committee is one thing, but the purpose is to try to 
enlighten our communities that there are individuals in 
Congress that realize that ICE and those involved in detention 
are actually violating the civil rights of many of our young 
people as well as parents that are being detained.
    We know there have to be protocol set up. We have sent 
letters also to ICE to question them as to what authority they 
have in terms of rounding people up and bringing them in with 
the fact that they are not providing adequate legal assistance 
or the opportunity to obtain legal assistance that is, seeking 
an attorney or counsel for many of those that are being 
detained.
    We know that there is a series of major violations going 
on. This administration has been very reluctant in even 
corresponding back to members of Congress. That's how blatantly 
their disregard for our role as members of Congress.
    We are going to continue to fight on that forefront and to 
see that we find protection for those that are being detained, 
whether it's in Texas, because we know of the horrendous 
separation of infants from mothers and what that is called, the 
posttraumatic stress that our communities are facing, not just 
the Latino, but also other immigrants that are being detained.
    My understanding is that facility in Texas, as we are 
speaking, has many individuals from the Asian Pacific Islander 
countries as well as other Third World countries and that are 
not also having their personal needs addressed as well. We know 
that's a problem.
    There was a horrible incident in Arkansas where a woman was 
detained for three days. They did not know she was being held. 
The enforcement authorities found her dead after three days. 
Nobody listened to her pleas and cries for assistance and they 
kind of forgot about her. That, to me, is something that I know 
our members of the Hispanic caucus and one of my good friends 
from the CBC, Congresswoman Eddie Bernice Johnson from Texas, 
has encouraged us to work on getting some answers from this 
administration on the treatment of immigrants and those 
individuals that are innocently being rounded up and 
incarcerated. We know that's an important issue.
    It isn't just happening here in the United States. I think 
that's what we need to try to underscore here. Our role with 
the OSCE and Helsinki Commission. We are finding very 
treacherous incidents that are occurring every single day in 
European countries.
    The most vulnerable population happens to be children and 
women is why we are having this particular hearing here today 
because we want to share those similarities, those things that 
are not just happening here but reflective of what's happening 
in other countries that are trying to achieve democracy.
    We know our countries stands on very strong principles of 
democracy and social justice and civil rights, but we are 
failing, I think, in our constitutional duties to uphold those 
rights of everyone regardless of their legal status in this 
country.
    I am very, very sympathetic to many of the statements that 
you all have made, but I also want to hear from you what the 
federal government--in particular, we haven't talked about the 
media and the portrayal of immigrants in the plight of this 
country, and if each of you could maybe tell me what your 
observations have been, that might be some of help to us as 
well.
    We obviously have a bad public relations image with respect 
to migration and what values immigrants bring or don't bring to 
this country. If you could do that. We will start out with 
Kerry Doi and go through really quick. If you could summarize 
in a minute or so.
    Mr. Doi. It's really a complex issue that I've been trying 
to battle in the last 40 years, the portrayal of Asians in the 
media. Yesterday over the radio some talk show host was using 
ching-chong chinaman kinds of jokes, and it was absolutely 
ridiculous. Aren't we in the 21st century? But it's still going 
on. And it does hurt.
    I mean, it continues the image of Asians being sneaky and 
all those kinds of things, which is why back in the '60s we 
decided to drop the term Oriental and recreate the term of 
Asian to self-identify and recreate a new image.
    Ms. Salas. I think the first thing that needs to happen is 
we need to understand that for the past, I would say, almost 15 
years we have created ``immigrant'' synonymous to ``criminal,'' 
and what has happened is that that is the excuse that the anti-
immigrant, the native movement in this country, many of them 
who then are anchors on major newscasts. Certainly, Lou Dobbs, 
the O'Reilly Factor, and we can go on. They are not the only 
ones. In our local press, the newspaper articles that are 
written or the local television newscasts and how they portray 
immigrants. But the foundation of this possibility of treating 
and speaking of immigrants with such hate and venom is this 
idea that immigrants are equal to criminals.
    We have to decriminalize the act of working, the act of 
trying to survive and provide for their families. I think 
through Congress and in all these other countries around the 
world where we are putting billions and billions of dollars on 
the enforcement and then castigating and then trying to round 
up immigrants as criminals. They are not. They are workers.
    I think that needs to happen because then what ends up 
happening when you are talking to a Lou Dobbs or O'Reilly, they 
say, ``Well, they have committed a crime and therefore we have 
to pursue them and treat them this way and we have to talk 
about them as one,'' and we have to reject that idea, reject it 
once, reject it twice, as many times as we can.
    These are hard-working people who we should be proud of and 
who we should support and certainly not round up.
    Ms. Lee. I wanted to agree with both speakers and say what 
we need to do is have Americans understand that the immigration 
problem is something that doesn't get fixed and benefit just 
immigrants but all Americans.
    There are two key misperceptions. One is that there is a 
diminishing opportunity that immigrants are taking away and the 
feeling that there's a loss of American culture with the 
migration of immigrants. And that's why--for example, the 
assumption that immigrants don't want to speak English and so 
on and so forth. So I really believe that there are two key 
parts of it that we have to address.
    One is integration and identification. If nonimmigrants can 
better identify immigrants as part of their own, their 
political perception will change. Political views are the same 
in themselves, but personal views and the attachment to 
individuals is what changes our communities.
    I wanted to mention a case of Andrew Young, a Korean boy 
born in U.S. and raised in Ohio. His parents were deported when 
he was 14. The community around him was nonimmigrant, 
predominantly white, and predominantly Republicans and 
predominantly Baptists. They knew nothing of immigration, but 
they knew him and his family.
    Because of his case, they take political views in terms of 
immigration. If this is what the immigration laws are going to 
do to people like him, those political views need to be 
changed.
    What the media needs do is show how immigrants are more 
diverse but personalize the issue in a human way and not, as 
Angelica and others mentioned, criminalizing the person as 
someone as the outsider and someone that doesn't want to be 
integrated to the American culture.
    Ms. Solis. Alcee, I'll turn it over to you.
    Mr. Hastings. Thank you very much. Our witnesses have 
answered all of the questions. I guess if we have any follow-up 
at all, it should attend what I always say is the subject of 
solutions. As all of you were speaking, I was thinking of how 
interactive our overall society is and can be, and to write a, 
so-called comprehensive immigration reform measure, one good 
way to do that in today's society might be to start with just a 
clean slate and have everybody phone in, e-mail in, call in and 
say what ought to be on it and have a big slate. I don't think 
we are going to get it in this political system because we play 
too much gotcha, and somewhere along the lines I don't think 
people are fair-minded listeners.
    I won't ask you any questions. I want to compliment and 
thank Hilda and the administration here at Cal State for 
accommodating us. Also Hilda's staff that have done a 
tremendous job in arranging this in a short period of time, as 
well as those that work with us on the Helsinki Commission. 
Additionally, we are particularly grateful of the law 
enforcement in our community here has been helpful and very 
accommodating to all of us as well.
    You, as an audience, have been extremely patient, and I 
really, really appreciate it. I always feel that it would be 
better to not have the high table and a low table, but to have 
everybody--there are so many ideas in this audience, there's so 
much expertise right here. Earlier we were meeting. I offered a 
measure dealing with the Iraqi refugees, and a young lady 
seated here now actually lived in Iraq during the era of Saddam 
Hussein, and it would be interesting to have her perspective as 
well as those of you who are here from labor unions and knowing 
the extraordinary experiences that you have in that regard.
    I wanted to end two ways, Madam Congresswoman, really 
three. I want to point to something Ms. Lee pointed out about 
the law that the Supreme Court upheld, that is, an Indiana law 
regarding persons requiring identification.
    My mother died three and a half years ago, and because of 
her age and circumstances, she did not have photo 
identification and she never drove a car to any relative 
degree. When she did try to drive a car, she had a red '55 
standard car, and we had a dog named True Boy, and the next day 
they tried to get True Boy to get into the car and he ran under 
the house. He wouldn't ride with my mama. She never had a car, 
she didn't have that. In Indiana last Tuesday in the election 
five nuns showed up to vote from a convent there in Indiana, 
and all of them were in their 90s. None of them had 
identification.
    I mean, come on, what are we saying here? But for this 
nation to reconcile its problems, and I do want to speak to the 
momentary politics of Mr. McCain and Mr. Obama and Mrs. 
Clinton. They don't know it yet and we don't feel it yet, but 
what they are doing by being a woman, an African-American man, 
and a white man, and there was a Latino in this race and there 
were other nationalities as well, but what they are doing is 
taking us to a better level.
    When all is said and done, the residual from it will be 
that some level of tolerance will be manifested in a different 
way by virtue of the mere fact that they are in the position, 
particularly Obama and Clinton, to be president of the United 
States. I think that's a very healthy thing for all of us.
    Ms. Salas, I agree with you so much about decriminalizing 
the criminal notion. 9/11 didn't help very much because it 
added to the word criminal, terrorist, and then everything 
became suspect, and it made it manifest even more for those 
that divide us as we go forward.
    But I want to end with a story that I know from the 
experience of having lived on this earth for 71 years. In 
Arkansas, outside of a town named Hughes, Arkansas, a black 
singer was on his way to Texas with his band. He was a blues 
singer. His name was Percy Mayfield. He had a nephew who went 
on to some considerable fame, Curtis Mayfield. Percy Mayfield, 
on a foggy night when his band had finished and they were 
moving on, he and his band was struck by a white family from 
New York from the rear.
    One of his band members died, and he was disfigured such 
that he only had a limited career after that, but he was a 
songwriter until he died. In those days, there were only three 
black doctors in Arkansas, and one came, and a white woman 
assisted him to be treated in the alcove of the emergency room 
of the hospital in Hughes, Arkansas. He couldn't convalesce in 
the place, so they took him to the home of a negro woman that 
was a widow. And he heard her pray and he wrote a song that I, 
as a little boy, also thought was just a blues song and danced 
close to my girlfriend. But the song sums up what we all could 
be about and what Hilda and I are about and Diane and those of 
us who are sensitive to these issues are about. It says, Father 
Richard, ``Heaven is searching for all mankind''--and I would 
make his song be gender perfect today and say, ``humankind 
understanding and peace of mind. If it's not asking too much, 
Lord, please send me someone to love.''
    In the refrain of the song he says, ``A less man''--and I 
would make it gender perfect and say, ``a less man or woman,'' 
he does not say, ``unless Latino or Hispanic man,'' he doesn't 
say, ``African or Asian man.'' He says ``unless man,'' not 
Catholic man or Protestant man or Jewish man, ``unless man puts 
an end to this damn noble sin, hate will put the world in a 
flame. What a shame.''
    Thank you all so very much for being here.
    Ms. Solis. It's hard to follow Alcee sometimes because he's 
so eloquent and has moving stories that I enjoy hearing all the 
time. I want to reiterate that the testimony that all of our 
witnesses have given will be posted, so everyone can see the 
full length of their testimony.
    I know five minutes doesn't give us enough time to hear 
everything that should be said, and the questioning could go on 
for one whole day on one subject matter, whether it's 
remittances, education, whether it's allowing access for our 
young people who are undocumented to receive higher education 
and receive the full benefits of our society. Those are all 
issues we care about.
    In the framework of this body, the OSCE, and my role as 
special representative of migration, I'm going to take back 
everything that we have learned here today and we will put it 
in a report and we will post it.
    I would ask you to also share with other individuals who 
represent the various communities here. We have representatives 
from Honduras, from Guatemala, from Mexico, from our Asian 
Pacific countries, to also ask them what are they doing about 
this issue in reference to their own home countries and do they 
accept some of the principles that we talked about here today. 
Because this is about one family. It's not just one L.A. It's 
not just one L.A. County. It's not just one California. It's 
about the entire globe in the planet, and I think all of us can 
really learn from that.
    So I ask you to think about that and to take that message 
back to your countries and to your representatives who also 
have a great deal to say in this body of politics that we have. 
I thank the witnesses for coming, and I really want to thank 
the audience. We have a number of people in the audience who I 
know may not have had the full extent of understanding 
everything that was said.
    Part of it was because we didn't have interpreters, 
primarily in Asian, but also in Spanish. So I think our 
challenge will be to try to translate this information also and 
post it perhaps on my Web site in Spanish so people can read 
what took place here today because a lot of information here 
was very powerful, and the fact that we had Congresswoman 
Watson, Congressman Alcee Hastings, and this is probably one of 
the most important hearings that you will hear about that took 
place outside of Washington, D.C., where you had some of your 
premier leadership on this issue come forward and testify to 
members of the Congress.
    With all that is going on surrounding the migration and 
immigration debate, I, like Alcee, am waiting after November to 
see, when we come back to the House in January, and we will 
begin to pull off the shelf the bills and bills that need to be 
implemented, and that is to address immigration reform and also 
to work better with our neighboring countries to see that we 
have better relationships with them as well.
    We have done a great disservice, I think, with our friends 
south of the border. We have not outreached to them adequately. 
Even to our friends on the other parts of the continent to 
really allow them to understand us better, to really see the 
heart of the American people.
    You may not always see that reflected in our leaders or so-
called leadership in Washington, D.C., as it currently stands. 
That will change. I think many people across the country and 
across the world that I have run into, just based on this 
particular group, this one organization, are very, very 
delighted to see the change in our House administration.
    That's what it is. It's about healing. There are some very 
bad and mixed feelings about how people perceive our country. 
If we can't treat our own citizens of our country well, we are 
not going to be respected by anyone outside of our own borders. 
We have a lot of work to do and a lot of what you say and said 
here today about how we need to make improvements we take very 
strongly to heart.
    I want to thank all of you for being here. The next part of 
our hearing or our tour will be to go to Olvera Street to see 
La Placita there and to meet with some people and also tour the 
Chinatown Action Service Center to hear about how immigrants 
are reintegrated into society and the positive things that go 
on as well as the challenges.
    The federal government has a role to play here, and we 
obviously know we have failed in the last seven years. It's 
time for a change and we see it coming, and we want you also to 
understand that we are going to be calling on you. This is not 
a job of just two people. It is all of us working together.
    So on behalf of the people that I represent in the 32nd 
District and also part of my role as representative on 
migration for the OSCE and also as a concerned daughter of 
immigrants, I understand the role that we play and take very 
deeply all the comments that have been made today. I want to 
thank you. Before we depart, Cal State L.A., on behalf of 
President Ross, he wanted me to present this to Alcee Hastings, 
who I understand is a close colleague of the president.
    Mr. Hastings. Thank you.
    Ms. Solis. I would say to the audience here that if you 
have any comments that you would like to make, you have our Web 
site, and you can also send us information and we would like to 
hear from you.

                                    

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
